PROOF OF SERVICE
I, William M. Windsor, do swear or declare that on this date, January 6,
2021, as required by Supreme Court Rule 29,1 have served the enclosed MOTION
FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR WRIT OF
MANDAMUS on each party to the above proceeding or that party’s counsel, and on
every other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of them and
with first-class postage prepaid or by email.
The names and addresses of those served are as follows1
Sean D. Fleming, do Barbara Hachenburg and Kelli Smith, Germer Law Firm,
America Tower, 2929 Allen Parkway, Suite 2900, Houston, TX 77019,
bhachenburg@germer.com -- ksmith@germer.com
Clerk, Supreme Court of Texas, PO Box 12248, Austin, Texas 78711, 512-463-1312,
Fax: 512-463-1365.
Clerk of Tenth Court of Appeals, McLennan County Courthouse, 501 Washington
Avenue, Room 415, Waco, Texas 76701-1373, 254-757-5200, Fax: 254-757-2822,
Nita.Whitener@txcourts.gov.
Judge Bob Carroll, 40th Judicial District Court, 109 S. Jackson Street, Third Floor,
Waxahachie, Texas 75165, carol.page@co.ellis.tx.us.
Judge William D. Wallace, 378th Judicial District Court, 109 S. Jackson Street,
Third Floor, Waxahachie, Texas 75165, katie.dophied@co.ellis.tx.us.
Judge Cindy Ermatinger, 443rd Judicial District Court, 109 S. Jackson Street,
Third Floor, Waxahachie, Texas 75165, cindy.ermatinger@co.ellis.tx.us.
Clerk of Ellis County District Court, 109 S. Jackson Street, Waxahachie, Texas
75165, 972-825-5284, Fax: 972-825-5276, melanie.reed@co.ellis.tx.us.
I declare under penalty of perjury that the foregoing is true and correct.

14

Executed the 6th day of January, 2021.

ft l
William M. Windsor
Pro Se

15

VERIFICATION
Personally appeared before me, the undersigned Notary Public duly authorized to
administer oaths, William M. Windsor, who after being duly sworn deposes and states that he is
authorized to make this verification and that the facts alleged in the foregoing are true and
correct based upon his personal knowledge, except as to the matters herein stated to be alleged
on information and belief, and that as to those matters he believes them to be true.
I declare under penalty of perjury that the foregoing is true and correct based upon my
personal knowledge.
This 5th day of January, 2021,

William M. Windsor

Sworn and subscribed before me this 5th day of January, 2021, by means of physical
presence.

4$«>,
i

Public

\

c.

c <p\ No'GG 273882 /

C

-

/

; My Comm. Expires*:
j January 28,2023 ;

—

CERTIFICATE OF COMPLIANCE
I hereby certify that this pleading has been prepared in Century 12-point
font, one of the fonts and point selections approved by this Court. This Petition
contains 12 pages and 3,084 words.
Certified this 5th day of January, 2021,

William M. Windsor
Pro Se

13

